t

If

Appendix A
Description of this Appendix:

Ue.-JS\£*'- o f

Number of Pages in this Appendix:

T

-j

Li . S ,

COO r f p£ A pp ££ j <

Case: 17-55316, 04/20/2020, ID: 11665307, DktEntry: 63-1, Page 1 of 3

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

APR 20 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

>>■

' -i

' 'Z<

NATHANIEL MARCUS GANN,
Petitioner-Appellant,

No.

17-55316

D.C. No.
3:12-cv-01418-JAH-BLM

v.
RALPH DIAZ, Secretary of the California
Department of Corrections and
Rehabilitation,

MEMORANDUM*

Respondent-Appellee.

Appeal from the United States District Court
for the Southern District of California
John A. Houston, District Judge, Presiding
Submitted April 16, 2020**
Pasadena, California
Before: THOMAS, Chief Judge, and FERNANDEZ and W. FLETCHER, Circuit
Judges.
State prisoner Nathaniel Gann petitions for review of the district court’s
denial of his habeas petition, arising out of his California conviction for firstThis disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 17-55316, 04/20/2020, ID: 11665307, DktEntry: 63-1, Page 2 of 3

degree murder. We have jurisdiction under 28 U.S.C. § 2253(d), and we affirm.
Because the parties are familiar with the factual and procedural history of the case,
we need not recount it here.
1.

The Sixth Amendment’s Confrontation Clause bars the admission of

statements that are both testimonial and offered for their truth if the declarant is
unavailable. Crawford v. Washington, 541 U.S. 36, 59 (2004). The California
Court of Appeal concluded that the state trial court’s admission of the transcript of
a 911 call from a co-defendant who was not available to testify at trial did not
violate the Confrontation Clause because it was not testimonial in nature. People
v. Gann, 123 Cal. Rptr. 3d. 208, 219 (Cal.Ct.App. 2011). The district court
properly concluded that the decision was not contrary to, or an unreasonable
application of, clearly established federal law. 28 U.S.C. § 2254(d).
The transcript of the co-defendant’s 911 call was properly admitted into
evidence because the objective circumstances indicate that it was made in the
course of an ongoing emergency with the purpose of protecting the public and
procuring aid; the co-defendant’s statements in the call were therefore non­
testimonial. See Davis v. Washington, 547 U.S. 813, 827 (2006) (“A 911 call... is
ordinarily not designed primarily to ‘establish or prove’ some past fact, but to
describe current circumstances requiring police assistance.”)
2

Case: 17-55316, 04/20/2020, ID: 11665307, DktEntry: 63-1, Page 3 of 3

2.

The district court also properly concluded that the California Court of

Appeal decision as to other alleged violations of the Confrontation Clause was not
an unreasonable application of clearly established federal law because, even
assuming such a violation, any error was harmless given the overwhelming
evidence of guilt. Brecht v. Abrahamson, 507 U.S. 619, 637 (1993). Gann was
identified by an eyewitness fleeing the crime scene. Neighbors reported seeing a
truck like Gann’s parked near the crime scene. Police found Gann’s shirt and ski
mask discarded near the crime scene. Gann’s DNA was found on the discarded ski
mask.
After his arrest, he confessed what he had done to a fellow jail inmate.
Thus, even assuming co-defendant’s statements to the police were improperly
admitted-an issue we do not reach-any errors were harmless.
3.

We need not, and do not, reach any other issue urged by the parties.

We decline to expand the Certificate of Appealability.

AFFIRMED.

3

Appendix B
Description of this Appendix:

u.i. /fei.i'-t a 4 k pp fjCt /S
** C> ret e t* fH a Kd*;i<£

Number of Pages in this Appendix:

z

Cj

•4(

FILED
UNITED STATES COURT OF APPEALS

JUN 8 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

NATHANIEL MARCUS GANN,
Petitioner-Appellant,
v.
RALPH DIAZ, Secretary of the California
Department of Corrections and
Rehabilitation,

No.

17-55316

D.C. No.
3:12-cv-01418-JAH-BLM
Southern District of California,
San Diego

ORDER

Respondent-Appellee.

Before: THOMAS, Chief Judge, and FERNANDEZ and W. FLETCHER, Circuit
Judges.
The panel has voted to deny the petitioner’s petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc, and no judge
of the court has requested a vote on the petition for rehearing en banc. Fed. R.
App. P. 35(b).
The petitioner’s petition for rehearing en banc is denied.

UNITED STATES COURT OF APPEALS

FILED

FOR TEE NINTH CIRCUIT
JUN 16 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

NATHANIEL MARCUS GANN,
Petitioner - Appellant,
v.
RALPH DIAZ, Secretary of the
California Department of Corrections
and Rehabilitation,

No. 17-55316
D.C. No. 3:12-cv-01418-JAH-BLM
U.S. District Court for Southern
California, San Diego
MANDATE

Respondent - Appellee.

The judgment of this Court, entered April 20, 2020, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Craig Westbrooke
Deputy Clerk
Ninth Circuit Rule 27-7

If

Appendix C
Description of this Appendix: »'0<v >4 i

'R.&&

■f US. 0;s+fc\ C&c*r4

Of
. HtdlgLg
ft C>rd*.~ Acfogrf;f{ &< R

Number of Pages in this Appendix:

Cl\)

ac)
C£J

&

Case 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6635 Page lot 31

<■4*

■ Jr"

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA

Case No.: 12cvl418 -JAH (BLM)
NATHANIEL MARCUS GANN,
Petitioner,
v.

RALPH DIAZ , Acting Secretary,
et al.
Respondent.

ORDER:
(1) VACATING ORDER DENYING
MOTION FOR RECONSIDERATION
[DOC. NO. 45] AND GRANTING RENEWED
MOTION FOR RECONSIDERATION
[DOC. NO. 47]
(2) OVERRULING PETITIONER’S
OBJECTIONS TO REPORT AND
RECOMMENDATIONS
[DOC. NO. 31];
(3) MODIFYING and ADOPTING in part the
REPORT AND RECOMMENDATIONS [DOC.
NO. 28]
(4)DENYING PETITION FOR WRIT OF
HABEAS CORPUS [DOC. NO. 1]
(5) DENYING MOTION FOR CERTIFICATE
OF APPEALABILITY AS MOOT

* Ralph Diaz is named in place of Jeffery Beard as Acting Secretary of the California Department of
Corrections and Rehabilitation, pursuant to Fed. R.Civ. P. 25(d).

C ase 3:12-cv-01418-JAH~BLM Document 58 Filed 09/14/18 PagelD.6636 Page 2 of 31

■v

.

Introduction

1

This matter comes before the Court on remand from the United States Court of

2
3

Appeals for the Ninth Circuit for the limited purpose of vacating this Court’s prior order

4

Denying Petitioner’s Rule 60(b) Motion for Reconsideration (see Doc No. 45) and

5

considering Petitioner’s Objections (“Pet’r’s Objs” or “Objections”) to Magistrate Judge

6

Barbra Lynn Major’s Report and Recommendation (“R&R”) on the merits. After careful

7

consideration of the entire record, and for the reasons set forth below, the Court (1)

8

VACATES its order denying Petitioner’s Rule 60(b) Motion (Doc. No. 45), (2) GRANTS

9

the renewed Motion For Reconsideration (Doc. No. 47), OVERRULES Petitioner’s

10

Objections (Doc. No 31), (3) MODIFIES and ADOPTS in part the Report and

11

Recommendations (Doc. No. 28), (4) DENIES the petition for writ of Habeas Corpus, and

12

(5) DENIES the Motion for Certificate of Appealability as MOOT.
Factual Background

13
14

The underlying facts set forth in the California Court of Appeal’s (“CCOA”) opinion

15

{doc. no. 18-71 at 48-55), affirming petitioner’s conviction on appeal are referenced as set

16

forth fully herein1.
Procedural Background

17

18

On January 28, 2008, petitioner and co-defendant, Hansen, were charged in an

19

information with one count of first degree murder. Doc. No. 18-4 at 17-19; Lodg. 1, vol. 1

20

at 1-2. The information further alleged personal use of a firearm within the meaning of

21

California Penal Code Section 12022.53(d) and (e)(1) and the special circumstance of lying

22

in wait pursuant California Penal Code section 190.2(a)(15). Id. Both defendants moved

23

to have their cases severed for trial. Doc. No 18-5 at 1; Lodg. 1, vol. 1 at 113-17. On October

24

7,2008, defendant Hansen moved to continue her trial. Id. at 37. Petitioner did not join that

25

motion. Id. On October 9, 2008 the trial court granted Hansen’s motion to continue her

26
27
i

28

Pursuant to section II of this Court’s order, the Court references, without adopting in toto, the facts set

forth by the opinion for purposes of reviewing petitioner’s objections on the merits.

2
12cvl418 -JAH (BLM)

< ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6637 Page 3 of 31

1

trial. Id. The government did not object, effectively severing the two trials. Id. On

2

November 5, 2008, Gann’s first trial began. Doc. No. 18-9 at 68; Lodg 1, vol. 3 at 706. It

3
4

ended in a mistrial on November 20, 2008, when the jury could not reach a unanimous
verdict. Id. at 105. On December 23, 2008, the trial court granted the district attorney’s

5

motion to rejoin petitioner’s case with Hansen’s case, which both defendants opposed. Doc.

6

No. 18-6 at 70 -81; Lodg. 1, vol. 2 at 311-22. Upon a joint trial, with separate juries,

7

petitioner was found guilty of murder in the first degree. Doc. No 18-7 at 60; Lodg. 1, vol

8

2 at 438. The jury found the special circumstance and the personal use, of a firearm

9

allegation were not true. Id.

10

After being denied relief on direct appeal and having his petition for review denied

11

by the California Supreme Court, Gann filed a petition for writ of habeas corpus, pursuant

12

to 28 U.S.C. § 2254, challenging his conviction. Doc. No. 1. On November 5, 2013,

13

Respondent filed a response to the petition. Doc. Nos. 10, 12, 14, 16-17. On December 5,

14

2013, Petitioner filed a traverse, requesting, inter alia, an evidentiary hearing. Doc. No. 19.

15

Pursuant to 28 U.S.C. § 636(b)(1) and CivLR 72.1, the Honorable Barbara L. Major, United

16

States Magistrate Judge, submitted the Report & Recommendations to this Court on July

17

17, 2014, recommending that Petitioner’s habeas petition and request for an evidentiary

18

hearing be denied. Doc. No. 28.

19

On August 26,2014, the Clerk of Court received objections to the R&R, postmarked

20

August 22,2014, and filed them nunc pro tunc to the postmarked date. This Court initially

21

declined to consider Petitioner’s objections as untimely and issued its order on November

22

3, 2015 adopting the R&R, denying the writ, and denying the request for an evidentiary

23

hearing. Doc. No. 39.

24

On December 3, 2015, the Clerk of Court received a filing captioned “Petition for

25

Rehearing,” postmarked November 23, 2015, and filed it nunc pro tunc to the postmarked

26

date. See Doc. No. 44. The Court construed Petitioner’s filing as a motion under Federal

27

Rule of Civil Procedure (“Fed. R. Civ. P.”) 60(b) for reconsideration of the denial of his

28

habeas petition based on his previously filed objections to the R&R.
3
12cvl418 -JAH (BLM)

<Hase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6638 Page 4 of 31

1

On February 27, 2017, the Court denied Petitioner’s Rule 60(b) Motion for

2

Reconsideration. Doc. No. 45. On March 8, 2017 Petitioner Filed an “Objection to

3

Denial...” of his motion, a new Motion for Reconsideration based on the “prison mail box

4

rule” and a “Motion for Certificate of Appeal” to the Ninth Circuit Court of Appeals. Doc.

5

No. 47. The Ninth Circuit granted Petitioner’s request for a certificate of appealability with

6

respect to two issues: (1) whether admission of Brae Hansen’s out-of-court statements

7

violated appellant’s Sixth Amendment right to confrontation, and (2) whether this Court

8

abused its discretion in failing to consider appellant’s objections to the magistrate judge’s

9

R&R.

10

On April 4, 2018, the Court requested a limited remand pursuant to Rule 62.1(c).

11

Fed. R. Civ. P. 62.1 (c). On May 15,2018, the Ninth Circuit granted the request for a limited

12

remand permitting this Court to vacate its prior ruling denying Petitioner’s Rule 60(b)

13

motion for reconsideration (doc. no. 45) and consider petitioner’s previously filed

14

objections on the merits. Petitioner’s renewed motion for reconsideration (doc. no. 47) and

15

objections to the R&R (doc. no. 31) are now before the Court.
Legal Standard of Review

16
17

I.

Objections to Report & Recommendations

18

The district court’s role in reviewing a magistrate judge’s report and

19

recommendation is set forth in Rule 72(b) of the Federal Rules of Civil Procedure and 28

20

U.S.C. § 636(b)(1). When a party objects to the magistrate judge’s report and

21

recommendation, the district court “shall make a de novo determination of those portions

22

of the report... to which objection is made,” and may “accept, reject, or modify, in whole

23

or in part, the findings or recommendations made by the magistrate judge.” Id.; see also

24

Fed. R. Civ. P. 72(b)(3). The party objecting to the magistrate judge’s findings and

25

recommendation bears the responsibility of specifically setting forth which of the

26

magistrate’s judge’s findings the party contests. See Fed. R. Civ. P. 72(b). It is well-settled

27

that a district court may adopt those portions of a magistrate judge’s report to which no

28
4
12cvl418 -JAH (BLM)

( ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6639 Page 5 of 31

1

specific objection is made, provided they are not clearly erroneous. See Thomas v. Am, 474

2

U.S. 140, 149(1985).

3

II.

AEDPA Considerations

4

Habeas relief may be granted “when a state court determination was either: “(1)

5

.. .contrary to, or involved an unreasonable application of, clearly established Federal law,

6

as determined by the Supreme Court of the United States; or (2) resulted in a decision that

7 was based on an unreasonable determination of the facts in light of the evidence presented
8 in the State court proceeding.” 28 U.S.C. § 2254(d); See Day v. Duncan, 121 F. App'x 211,
9

212 (9th Cir. 2005). A state court’s factual findings are “presumed to be correct,” although

10

a habeas petitioner may rebut this presumption by “clear and convincing evidence.” Id. §

11

2254(e)(1). The reviewing Court must be “‘convinced that an appellate panel, applying the

12

normal standards of appellate review, could not reasonably conclude that the finding is

13

supported by the record’ before the state court”. Rodriguez, 872 F.3d at 919 (9th Cir. 2017)

14

(quoting Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir. 2004).

15

Discussion

16

Petitioner filed a sixty-four-page objection to multiple sections of the R&R in

17

narrative form “arguing that his trial as a whole was incredibly unfair,” in violation of the

18

Confrontation and Due Process Clauses of the United States’ Constitution. The Court

19

consolidates Petitioner’s various multi-part discussions into two legal objections. First,

20

Petitioner objects to the R&R’s reliance on particular statements of fact set forth by the

21

California Court of Appeal (“CCOA”) and adopted by the R&R. {Petr’s Objs at 7-24). He

22

objects on the basis that such statements were derived from evidence that was either not

23

admitted before his separate jury or improperly admitted into evidence against him in

24 violation of his constitutional rights2. Second, Petitioner challenges the determination that
25
26
27
28

2 Petitioner also objects to statements of fact that conflict with the defense theory of the case, but he does
not pose a constitutional challenge to the admissibility of the evidence supporting those facts. “[A]
federal habeas corpus court faced with a record of historical facts that supports conflicting inferences
must presume-even if it does not affirmatively appear in the record-that the trier of fact resolved any
5
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6640 Page 6 of 31

1

the state court’s legal conclusions were neither contrary to, nor an unreasonable application

2

of, clearly established Federal law as determined by the Supreme Court. {Petr’s Objs at

3

25-64).

4

In addressing petitioner’s objections, the Court reviews the state court’s last

5 reasoned decision by the California Court of Appeal (“COOA”). See Shackleford v.
6 Hubbard, 234 F.3d 1072, 1079 n. 2 (9th Cir.2000).
7
8
9

I.

Federal Constitutional Error

A. Co-conspirator Statements
As a preliminary matter, petitioner argues that “the trial court used extra judicial

10 information that was not admitted against petitioner (Hansen’s confession) to determine
11

[the existence of a conspiracy] and allow testimonial hearsay to be admitted....” {Pet’r’s

12

Objs at 33). He further contends that the state appellate court continued to rely on Hansen’s

13

confession to find that there was sufficient evidence to support the trial court’s conclusion

14 that Hansen’s 911 call and her prearrest statements to law enforcement were made during
15

and in furtherance of the conspiracy. Id.

16

1. Preliminary Factual Determination

17

Whether the court must look only to independent evidence - that is evidence other

18 than statements sought to be admitted - when determining whether a conspiracy exists
19 between the declarant and the objecting party differs between California state law and
20 federal law. See People v. Thompson, 1 Cal. 5th 1043,1108 (2016), reh’g denied (Feb. 1,
21

2017), cert, denied sub nom. Thompson v. California, 138 S. Ct. 201 (2017) (the offering

22 party must present independent evidence to establish prima facie the existence of a
23

conspiracy); Cf Bourjaily v. United States, 483 U.S. 171 (1987) (a trial court, in making a

24 preliminary factual determination under the co-conspirator exclusion to the hearsay rule,
25

may examine the hearsay statements sought to be admitted).

26
27
28

such conflicts in favor of the prosecution, and must defer to that resolution.” Jackson v. Virginia, 443
U.S. 307, 326 (1979).
6
12cvl418 -JAH (BLM)

< ase 3:12-cv-01418-JAH-BLM

Document 58 Filed 09/14/18

PagelD.6641

Page 7 of 31

1

In general, state court evidentiary decisions are reviewed only to ensure consistency

2

with due process. Patterson v. New York, 432 U.S. 197, 202 (1977). A state court’s

3

“decision in this regard is not subject to proscription under the Due Process Clause unless

4

‘it offends some principle ofjustice so rooted in the traditions and conscience of our people

5

as to be ranked as fundamental.’” Id. (quoting Speiser v. Randall, 357 U.S. 513, 523,

6

(1958).

7

In Bourjaily, the Court reasoned,

8

[A] piece of evidence, unreliable in isolation, may become quite probative when
corroborated by other evidence. A per se rule barring consideration of these hearsay
9
statements during preliminary factfinding is not therefore required. Even if out-of10
court declarations by co-conspirators are presumptively unreliable, trial courts must
be permitted to evaluate these statements for their evidentiary worth as revealed by
11
the particular circumstances of the case.
12 Bourjaily, 483 U.S. at 180.
13

The state court relied heavily on Hansen’s out of court statements, including portions

14

of her confession, to determine that sufficient evidence had been presented to admit the

15

911 call and Hansen’s prearrest statements to law enforcement as statements made during

16

and in furtherance of the conspiracy. See Doc No. 28 at 27; Lodgment No. 13 at 16. In

17

light of Bourjaily, the state court’s consideration of Hansen’s out-of-court statements does

18

not rise to the level of a due process violation nor was it contrary to clearly established

19 Federal law as determined by the Supreme Court. Id.
20

Petitioner’s objection is

OVERRULED.

21

2. Admission of Co-Conspirator Statements as Testimonial Hearsay

22

Gann contends that the state court violated his Sixth Amendment right to confront

23

witnesses testifying against him by admitting testimonial hearsay. Petitioner maintains that

24

admission of Hansen’s testimonial statements was prejudicial error, characterizing the

25

remaining evidence against him (Goodman’s testimony, bank records and store receipts,

26

DNA evidence, and eyewitness testimony) as insufficient to support a conviction

27

considering the hung jury in his first trial.

28
7
12cvl418 -JAH (BLM)

( ase 3:12-cv-01418-JAH-BLM

1

Document 58

Filed 09/14/18 PagelD.6642 Page 8 of 31

The R&R considered Crawford v. Washington, 541 U.S. 36 (2004) and Brecht v.

2 Abrahamson, 507 U.S. 619 (1993), and concluded that even if statements made by Hansen
3

(to Officer Forsey and Detective Rivera) were testimonial in nature, the state court’s

4

decision to admit such evidence was not unreasonable in light of clearly established federal

5

law. Doc. No. 28 at 22, 33. The R&R further characterized the scenario presented here,

r6

where a co-conspirator’s testimonial statements to law enforcement are peppered with

7

fragments of the truth, arguably to make the false portions believable, as “a set of

8
U9

circumstances never before squarely addressed by the Supreme Court,” concluding that it
was not unreasonable for the state court to apply the same rationale as the court in United

10

States v. Stewart, 433 F. 3rd 273, 293(2d. Cir. 2006). Even assuming error, the magistrate

11

judge found that it was harmless in light of the testimony of prosecution witness Charles

12

Goodman and other corroborating evidence. Doc. No. 28 at 24, 34.

f~13

The “tension” between testimony admitted under the co-conspirator exception to the

14

hearsay rule and uncross-examined testimonial statements prohibited under the

15

Confrontation Clause was addressed by the Supreme Court in Bourjaily. Relying on Ohio

16

v. Roberts, 448 U.S. 56, 63 (1980) and Delaney v. United States, 263 U.S. 586, 590 (1924),

17

the Court held that there can be no separate Confrontation Clause challenge to the

18

admission of a co-conspirator’s out-of-court statement since “no independent inquiry into

19

reliability is required when the evidence ‘falls within a firmly rooted hearsay exception.’”

20

Bourjaily, 483 U.S. at 183 (quoting Roberts, 448 U.S. at 66).

21

abandoned this rationale, finding that the “reliability” test departed from the Confrontation

22

Clauses’ historical principles and original meaning. The Court explained,

^23
24
25
26
27
f_28

In Crawford, the Court

Where testimonial statements are involved, we do not think the Framers meant to
leave the Sixth Amendment’s protection to the vagaries of the rules of evidence,
much less to amorphous notions of “reliability.” Admitting statements deemed
reliable by a judge is fundamentally at odds with the right of confrontation. To be
sure, the Clause’s ultimate goal is to ensure reliability of evidence, but it is a
procedural rather than a substantive guarantee. It commands, not that evidence be
reliable, but that reliability be assessed in a particular manner: by testing in the
crucible of cross-examination....
8
12cvl418 -JAH (BLM)

Case 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6643 Page 9 of 31

1

~~6

Where nontestimonial hearsay is at issue, it is wholly consistent with the Framers’
design to afford the States flexibility in their development of hearsay law—as does
Roberts, and as would an approach that exempted such statements from
Confrontation Clause scrutiny altogether. Where testimonial evidence is at issue,
however, the Sixth Amendment demands what the common law required:
unavailability and a prior opportunity for cross-examination....Whatever else the
term covers, it applies at a minimum to.. .to police interrogations.

7

Crawford, 541 U.S. at 61, 68. Under Crawford, the Sixth Amendment is triggered when

8

statements are offered into evidence that are (1) testimonial and (2) hearsay. Testimonial,

9

out-of-court statements, offered for their truth are barred under the Confrontation Clause

10

unless the witness is unavailable and defendant had prior opportunity to cross-examine. Id.

2
3
4

i 5

11

a. Hansen’s Statements to Detective Rivera

12

The trial court admitted Hansen’s statement to Detective Rivera as evidence against

13

Petitioner. There is no dispute that the questioning conducted by Detective Rivera during

14 the two hour interview at the police station constituted “police interrogation 3» under
15

Crawford and therefore Hansen’s responses fit comfortably under the testimonial umbrella.

16

However, the court wrestled with whether Hansen’s statements were offered for the truth

17

of the matter asserted.

18

The Confrontation Clause is not implicated when statements are offered “for

19 purposes other than establishing the truth of the matter asserted.” Crawford, 541 U.S., at
20

60, n. 9. At trial, defense counsel requested a limiting instruction directing the jury not to

21

consider Hansen’s statements for the truth of the matter asserted.

22
23
24
25

Mr. Ricardo Garcia: Because they are.. .hearsay statements as to Mr. Gann’s case
without any exception, except I believe Mr. Bennett’s argument in the - indicates
that he wasn’t offering them for the truth of the matter asserted, therefore they
wouldn’t be hearsay. And if that is the case, if they are not being offered in my
client’s case as to the truth of the matter asserted, I would ask for a limiting

26
27
28

The Court loosely used the term “interrogation” in its “colloquial, rather than any technical legal,
sense. Recorded statement[s], knowingly given in response to structured police questioning, qualifies
under any conceivable definition.” See Crawford, 541 U.S. at 53, fn 4.
9
12cvl418 -JAH (BLM)

dkse 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6644 Page 10 of 31

4

instruction to the jury to indicate that they are not to consider Miss Hansen's
statements at this point in time for the truth of the matter asserted, and that is why
they are not hearsay.
The Court: Why Can't — Well, I may have to. Why can’t it be introduced for the
truth of the matter stated?

5

Mr. Ricardo Garcia: It's hearsay.

6

The Court: Is it?
Mr. Ricardo Garcia: It is hearsay. It’s her statement.

1
2
3

7

8
9
10
11
12
13
14
15
16

The Court: Has the conspiracy ended yet? When does the conspiracy end?
Mr. George Bennett: The conspiracy ends when they are arrested.
The Court: That's right.
Mr. George Bennett: One of the elements of the conspiracy is the carrying out of
the objective of the conspiracy....
Mr. Ricardo Garcia: The statements of Miss Hansen gave to the police officers are,
in fact, hearsay, therefore truthful statements, that is fine, as well. But my
understanding is his argument is that Miss Hansen is lying to the officers, and that
he - that she then confesses her truth later on .. .partially to Rivera, then ultimately
to.. .Burkett and to Smith.
The Court: These statements are admissible. The conspiracy is going...

17

Mr. Ricardo Garcia: My question is, a limiting instruction to let them know that
they are not for the truth of the matter asserted.

18

The Court: No, No, No.

19

Turning to the reasoning laid out by the Second Circuit in Stewart, the CCOA

20

concluded that the truthful statements were not rendered inadmissible by the Confrontation

21

Clause because they were “designed to lend credence to the false statements and hence

22

advance the conspiracy.” 433 F. 3rd at 293. However, in light of Crawford, it is irrelevant

23

whether the statement being offered falls within a hearsay exception for the purpose of a

24

Confrontation Clause analysis. The Court considered this contention along with multiple

25

hearsay exceptions discussed by the dissent. Ultimately the Court disagreed with Chief

26

Justice Rehnquist that “some out-of-court statements are just as reliable as cross-examined

27

in-court testimony due to the circumstances under which they were made,” concluding that:

i

28
10
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6645 Page 11 of 31

1

5

Involvement of government officers in the production of testimony with an eye
toward trial presents unique potential for prosecutorial abuse—a fact borne out time
and again throughout a history with which the Framers were keenly familiar. This
consideration does not evaporate when testimony happens to fall within some broad,
modem hearsay exception, even if that exception might be justifiable in other
circumstances.
Crawford, 541 U.S. at 56.

6

Specific portions of Hansen’s statements, offered through the testimony of Detective

2
3
4

7 Rivera, including incriminating statements regarding the intruder’s clothes, the type of gun
8 used, and the direction in which he fled were arguably the “truthful” statements to which
9 the CCOA referred and which the prosecution sought to prove - making those statements
10 testimonial hearsay. As a co-defendant, Hansen invoked her Fifth Amendment right
11

against self-incrimination and therefore was unavailable as a witness. See California v.

12

Green, 399 U.S. 149, 168 n.17 (1970) (defendant who invokes the Fifth Amendment right

13

against compelled self-incrimination is unavailable); Padilla v. Terhune, 309 F.3d 614,618

14 (9th Cir. 2002) (same).
15

However, Gann had no prior opportunity to test the veracity of her statements through

16 cross-examination - an indispensable prerequisite for admission of testimonial evidence
17 under the Confrontation Clause. Crawford, 541 U.S. at 59. The admission of testimonial
18 hearsay, i.e. Hansen’s out-of-court statements to Detective Rivera offered into evidence for
^

19

the tmth of the matter asserted, violated Gann’s Sixth Amendment right. To find otherwise

20 was contrary to and an unreasonable application of the holding in Crawford.
21
b. Hansen’s Statements to Forsev
22

Upon arrival to the scene, officer Forsey was assigned with the responsibility of

23

“taking care of Hansen and getting a statement.” Doc. No. 18-23 at 120; Lodgement 3, vol.

24

6 at 326. He testified that the purpose of getting her statement was to “acquire more

25

information on the circumstances...regarding the death, and ...obtain suspect

26

information.. .start the apprehension process of finding the suspect or any witnesses or any

27

additional information related to the crime.” Id. at 111-12. While law enforcement was

28

securing the ground floor, officer Forsey escorted Hansen up the stairs and out the front
11
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6646 Page 12 of 31

1

door, away from where the suspect was last seen fleeing. Id. at 142. He testified that his

2 primary concern was safety, to insure there was no immediate threat, and to make sure
3 Hansen was not in need of medical assistance. Id. at 123
4

Foresey interviewed Hansen inside an ambulance in front of the residence. Id. at

5

110, 119. It began shortly after 12:40 p.m., when officer Forsey arrived on the scene, and

6 continued until Detective Rivera and Sargent Morales arrived a little after 2:17 p.m. See
7 Id. at 132; Doc. No. 18-24 at 131-132. He began the interview by asking Hansen some
8 basic information, including her name, address, home phone and cell phone number. Doc.
9 No 18-23 at 112-13.He then asked Hansen to recount what happened in narrative form and
10 took notes from her statement. Id. at 113. Officer Forsey reassured Hansen that she was
11

safe and called a crisis counselor to the scene. Id. at 104-105.

12

The CCOA concluded that officer Forsey was primarily concerned with

13

determining what happened and whether Hansen had any information that could help

14 police find the suspect, but that his conversation with Hansen was not structured or formal
15

and therefore nontestimonial. However, in Michigan v. Bryant, 562 U.S. 344, 365-66

16

(2011), the Supreme Court clarified,

17
18
19
20
21
22
23
24

25
26
27

28

Whether formal or informal, out-of-court statements can evade the basic objective
of the Confrontation Clause, which is to prevent the accused from being deprived of
the opportunity to cross-examine the declarant about statements taken for use at trial.
When, as in Davis, the primary purpose of an interrogation is to respond to an
“ongoing emergency,” its purpose is not to create a record for trial and thus is not
within the scope of the Clause. But there may be other circumstances, aside from
ongoing emergencies, when a statement is not procured with a primary purpose of
creating an out-of-court substitute for trial testimony.
Davis made clear, whether an ongoing emergency exists is simply one factor—albeit
an important factor—that informs the ultimate inquiry regarding the “primary
purpose” of an interrogation.... Formality is not the sole touchstone of our primary
purpose inquiry because, although formality suggests the absence of an emergency
and therefore an increased likelihood that the purpose of the interrogation is to
establish or prove past events potentially relevant to later criminal prosecution,
informality does not necessarily indicate the presence of an emergency or the lack
of testimonial intent, (quotations omitted).
12
12cvl418 -JAH (BLM)

C =tse 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6647 Page 13 of 31

1
2

Id. at 366. In Davis, the Supreme Court recognized that “a conversation which begins as

3

an interrogation to determine the need for emergency assistance” can “evolve into

4

testimonial statements.” 547 U.S., at 828. The Court explained further in Bryant:

5

This evolution may occur if, for example, a declarant provides police with
information that makes clear that what appeared to be an emergency is not or is no
longer an emergency or that what appeared to be a public threat is actually a private
dispute. It could also occur if a perpetrator is disarmed, surrenders, is apprehended,
or, as in Davis, flees with little prospect ofposing a threat to the public. Trial courts
can determine in the first instance when any transition from nontestimonial to
testimonial occurs, and exclude “the portions of any statement that have become
testimonial, as they do, for example, with unduly prejudicial portions of otherwise
admissible evidence”. Davis, 547 U.S. at 829. (emphasis added)
562 U.S. at 365-66

6
7
8

9
10
11
12

“To determine whether the ‘primary purpose’ of an interrogation is ‘to enable police

13

assistance to meet an ongoing emergency,’ Davis, 547 U.S., at 822, which would render

14

the resulting statements nontestimonial, we objectively evaluate the circumstances in

15

which the encounter occurs and the statements and actions of the parties.” Id. at 366. The

16

circumstances, statements, and actions of both the declarant and the interrogator are to be

17

considered. Id. at 367

18

In the instant case, law enforcement became aware that the suspect had fled, the

19

weapon had been left at the scene, McNeil was dead, and Hansen had refused medical

20

treatment, providing some “context for first responders to judge the existence and

21

magnitude of a continuing threat to the victim(s), themselves, and the public.” See Id. at

22

365. While Forsey’s initial concern was safety, his belief that any threat posed by the

23

suspect was minimal is evidenced by Foresy’s willingness to call a third-party (crisis

24

counselor) to the scene. Additionally, Forsey allowed Hansen to provide her statement in

25

narrative form - a form of interrogation not typically used to elicit responses necessary to

26

resolve an emergency.

27

Forsey testified that Hansen was weeping and upset, but not hysterical. The circumstances,

28

statements and actions of both Forsey and Hansen indicate that the crisis had subsided.

The interview lasted over an hour, with no sense of urgency.

13
12cvl418 -JAH (BLM)

C 3Lse 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6648 Page 14 of 31

1

Forsey’s questioning, though not as formal and structured as Detective Riveria’s,

2

cannot be characterized as informal. The location of the interview is just one factor of the

3

formality inquiry. Forsey asked Hansen standardized introductory questions, including her

4

name, address and phone number. He testified that he didn’t have that information

5

memorized and took notes from the statement she provided. Doc. No. 18-23 at 113. Any

6

indication that a declarant’s responses are being documented would alert the declarant that

7

the information provided may be used in future prosecution. See United States v. Larson,

8

460 F.3d 1200,1213 (9th Cir. 2006), aff’donreh'g en banc, 495 F.3d 1094 (9th Cir. 2007)

9

(recognizing that Crawford at least suggests that the declarant’s awareness or expectation

10

that his or her statements may later be used at a trial is a determining factor).

11

As Forsey testified, the primary purpose of the interrogation was to determine what

12

happened and begin a criminal investigation. To do so, it was necessary for Forsey to

13

“establish .. .past events potentially relevant to later criminal prosecution.” Davis, 547 U.S.

14

at 822. Under a comprehensive and objective evaluation of the circumstances, Hansen’s

15

statements to detective Forsey were testimonial. To the extent the CCOA based its

16

determination regarding the testimonial nature of Hansen’s statements only on the

$X1

touchstone of formality, the Court finds that the CCOA’s determination was an

18

unreasonable application of Federal law under Bryant.

19

c. Hanesn’s 911 Call

20

The audio dispatch tape of Hansen’s conversation with the 911 operator was played

21

for the jurors on the second day of Gann’s trial. Doc. No. 18-10 at 6; Lodgment No.l, vol.

22

2 at 784-85. A copy of the transcript was also provided to jurors. Id. Hansen told the 911

23

operator that a thin man, about 5’6 or 5’7, dressed in dark clothing “popped out” and shot

24

her dad after her dad refused to provide the combination to the safe. Id. at 11-21. The 911

25

operator asked specific questions about the suspect’s race, height, build, facial hair,

26

clothing, tattoos, voice, mode of transportation and direction of flight. Hansen responded

27

that she could not determine his race nor whether he had tattoos or facial hair because he

28

was covered “head to toe,” in black jeans, a long sleeve black shirt, a black ski mask, black
14
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6649 Page 15 of 31

1

shoes, gloves and sunglasses. Id. at 12-13,18,20. The 911 operator made further inquiries:

2

whether anyone else was in the home, the layout of the residence, Hansen’s specific

3

location and whether first responders would be able to gain access to the house. Hansen’s

4

responses indicted that she was alone with her hands zip-tied, and her father laying on the

5

floor with “blood flowing out of his head.” Id. at 15,19,20. The operator assured Hansen,

6

“...we’re getting you help.... We’re gonna get some help for your dad too. We’re gonna

7

get paramedics to help him.” Id. at 21.

8

The Supreme Court has emphasized, “the basic objective of the Confrontation

9

Clause.. .is to prevent the accused from being deprived of the opportunity to cross-examine

10

the declarant about statements taken for use at trial.” Bryant, 562 U.S. at 366. The primary

11

purpose of the questioning is the ultimate inquiry. Id. “A 911 call.. .and at least the initial

12

interrogation conducted in connection with a 911 call, is ordinarily not designed primarily

13

to ‘establis[hj or prov[e]’ some past fact, but to describe current circumstances requiring

14

police assistance.” Davis, 547 U.S. at 827 (quoting Crawford, 541 U.S. at 51).

15

Although Hansen may have had an ulterior motive in crafting her responses,

16

Hansen’s call to 911 was primarily a call for help. As in Davis, when viewed objectively,

17

the questions asked and answered were the type to elicit information helpful in resolving

18

an ongoing emergency.

19

information for trial, the Davis Court recognized that the 911 operator’s ability to provide

20

a description of the suspect to dispatched officers responding to the scene helps ensure their

21

safety. Id. The suspect’s whereabouts were unknown, and at the time it was unclear

22

whether he was armed. These factors indicate an ongoing emergency.

While establishing the identity of the suspect is valuable

23

Lastly, the Court turns to the question of formality. The 911 operator’s questions

24

were unstructured and informal, asked rapidly and answered abruptly, all while Hansen

25

remained bound in a room with the bloody, lifeless body of her dad.

26

circumstances, it cannot be said that Hansen was acting as a witness. Her responses to the

27

911 operator were nontestimonial and not subject to the Confrontation Clause. The CCOA

Under such

28
15
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6650 Page 16 of 31

1

opinion reaching the same conclusion was neither contrary to, nor an unreasonable

2

application of Federal law. Petitioner’s objection is OVERRULED.

3 _____ B._Goodman’s Psychiatric Records
4

_____________________

1. Effective Cross-Examination

5

The prosecution called witness Charles Goodman to testify regarding incriminating

6

statements Gann allegedly made to him when they were both detained in the psychiatric

7

unit at Maricopa County Jail. Gann’s request for release of Goodman’s psychiatric records

8

for impeachment purposes prior to trial was denied. Relying on People v. Hammon, Cal.

9

4th 1117, 1119 (1997), the CCOA held that because defense counsel did not renew the

10

motion for disclosure of the records during Gann’s first trial or during the joint trial, there

11

was no error.

12

On Federal habeas review, petitioner claims he was denied an opportunity to

13

effectively cross-examine Goodman at trial in violation of his Sixth Amendment rights4.

14 Gann claims that the denial impacted defense counsel’s ability to impeach Goodman’s
15 testimony. Petitioner reasserts the same arguments in his objections to the R&R. See Doc.
16 No. 31 at 46, 49-51.
17

A defendant meets his burden of establishing a Confrontation Clause violation by

18

showing that “[a] reasonable jury might have received a significantly different impression

19

of [a witness’s] credibility had ...counsel been permitted to pursue his proposed line of

20 cross-examination.” Delaware v. Van Arsdall, 475 U.S. 673, 680 (1986); Slovik v. Yates,
21

556 F.3d 747, 753 (9th Cir.2009). Petitioner argues that not having the records prior to trial

22
23
24
25
26
27
28

4 Gann also challenges the admission of Goodman’s testimony as unreliable. “A habeas petitioner’s
contention that a witness’ testimony was unworthy of belief is not reviewable in habeas proceedings
since credibility determinations are the province of the jury. Mobley v. Kirkpatrick, 778 F. Supp. 2d 291,
312 (W.D.N.Y. 2011); United States v. Scheffer, 523 U.S. 303, 313 (1998) (A fundamental premise of
our criminal trial system is that the jury is the lie detector.) Under California law, “the credibility of a
witness and the weight to be accorded his testimony are questions directed to the trier of fact who may
accept all or part of the testimony of any witness it believes to be true or may reject all or any part of
which it believes to be untrue. Union Pac. R. Co. v. Munoz, 326 F.2d 248, 254 (9th Cir. 1964).

16
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6651 Page 17 of 31

1

impeded defense counsel’s ability to employ or prepare an expert witness to presumably

2

explain to the jury the mental defects Goodman suffered from and the effect any medication

3

may have had. However, employing an expert would not have given the jury a

4

“significantly different impression” of Goodman’s credibility. Defense counsel cross-

5

examined Goodman at length about his mental health, diagnosis, prescribed medications,

6

drug use, prior convictions, fanciful ideas, and misconduct. Doc. No. 18-29 at 63-93 This

7

line of questioning directly implicated “Goodman’s ability [or lack thereof] to perceive,

8

recollect or communicate,” and his overall state of mind. The defense also presented

9

officer Christopher Beckius to impeach Goodman’s testimony regarding the circumstances

10

of a prior arrest and describe his abnormal behavior. See Doc. No. 18-36 at 12-17. Based

11

on the Court’s review of Goodman’s medical records, it is highly unlikely that an expert

12

would have impeached Goodman’s credibility any more than defense counsel did during

13

cross examination.

14

examination despite denial of Goodman’s medical records, and therefore has failed to meet

15

his burden in establishing a constitutional violation. Denying defense counsel’s request for

16

the release of Goodman’s medical records was neither contrary to nor an unreasonable

17

application of federal law. Petitioner’s objection is OVERRULED.

18

Petitioner was allowed to pursue his proposed line of cross-

2. Non-Disclosure of Favorable Evidence

19

Petitioner also asserts that the denial of Goodman’s medical records amounted to a

20

Brady violation. See Brady v. Maryland, 373 U.S. 83, (1963). The Government has a duty

21

to disclose favorable evidence “only when suppression of the evidence would be ‘of

22

sufficient significance to result in the denial of the defendant’s right to a fair trial.’” Kyles

23

v. Whitley, 514 U.S. 419, 433 (1995) (quoting United States v. Agurs, 427 U.S. 97, 108

24

(1976)). Petitioner must show release of the records would have “put the whole case in

25

such a different light as to undermine confidence in the verdict.” Kyles, 514 U.S. at 435.

26

Defense counsel thoroughly cross-examined Goodman and presented rebuttal witness

27

Beckius. In addition, the R&R describes sufficient corroborating evidence contained in the

28

record, supporting material aspects of Goodman’s testimony.

Petitioner failed to

17
12cvl418 -JAH (BLM)

C =tse 3:12-cv-Q1418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6652 Page 18 of 31

1

demonstrate how the release of Goodman’s medical records would have undermined the

2

outcome of the case. To Court adopts the R&R’s reasoning to the extent consistent with

3

this order. Petitioner’s objection is OVERRULED.

4

C. Aggravating Evidence on Rebuttal: K.U.’s Rape Allegation

5

The prosecution called Gann’s former high school girlfriend, K. U., to rebut

6

testimonial evidence of Gann’s peaceful and non-violent character. Doc. No. 18-71 at 70.

7

In response to a follow-up question about Gann’s sexually abusive conduct, K.U. blurted

8

out that Gann raped her. Id. Defense counsel’s motion for a mistrial was denied. Id. The

9

trial court directed the prosecutor not to “overreach” on further direct examination, but

10

allowed additional questioning as to whether Mr. Gann “ma[d]e [K.U.] have sexual

11

intercourse with him” against her will. Doc. No. 18-38 at 24- 25. The prosecutor asked

12

K.U. if she had an “opinion about Mr. Gann being non-violent,” to which she responded,

13

“I do find him violent.” Id. at 26. He later asked whether she obtained a restraining order

14

against him and she answered in the affirmative. Id. at 29. The court granted a continuance

15

to allow defense counsel to locate surrebuttal witnesses to impeach K.U., but did not strike

16

K.U.’s rape allegation.

17

California rules of evidence permit the prosecution to offer rebuttal evidence of

18

defendant’s character, through otherwise impermissible testimony, when the defendant

19

“opens the door” by introducing potentially misleading character evidence. California

20

Evidence Code (“Cal. Evid. Code”) section 1102; People v. Gutierrez, 28 Cal. 4th 1083,

21

1139 (2002). Lawmakers have broad latitude to establish evidentiary rules for criminal

22

trials, so long as they do not infringe upon Constitutional guarantees. Holmes v. South

23

Carolina, 547 U.S. 319, 324 (2006). Constitutional rights are “abridged by evidence rules

24

that infringe upon a weighty interest of the accused and are arbitrary or disproportionate to

25

the purposes they are designed to serve, (internal quotations omitted) ”. Holmes, 547 U.S.

26

at 324 (2006). The Court in Payne v. Tennessee noted that “if, in a particular case, a

27

witness’ testimony... so infects the.... proceeding as to render it fundamentally unfair, the

28
18
12cvl418 -JAH(BLM)

C ise 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6653 Page 19 of 31

1

defendant may seek appropriate relief under the Due Process Clause of the Fourteenth

2

Amendment.” 501 U.S. 808, 831 (1991).

3

Gann called seven witnesses to attest to his peaceful character, which opened the

4

door under state law to evidence of petitioner’s character for violence and conflict. Cal.

5

Evid. Code § 1102 (b). The well-established evidentiary rule allowing for the admission of

6

such testimony is not arbitrary; it provides a method for the prosecution to ensure evidence

7

presented by the defendant is not misleading.

8

In deciding whether to put forth evidence, defense counsel must make a strategic

9

decision. See Campbell v. Kincheloe, 829 F.2d 1453, 1462 (9th Cir. 1987) (noting that one

10

reason the defense decided not to present evidence was to avoid “opening the door” to a

11

vast array of aggravating evidence in rebuttal, including the forcible rape of defendant’s

12

ex-wife, repeated rape and intimidation of fellow inmates, drug and alcohol induced

13

violence). At side bar, defense counsel claimed that had he known the witness would allege

14

rape, he would not have placed character evidence in front of the jury. Doc. No. 18-38 at

15

23. Defense counsel’s misguided calculation as to the potential scope of aggravating

16

evidence is of little consequence in light of the continuance granted to allow for additional

17

preparation to rebut it. The R&R adequately considers the impact of other testimony and

18

evidence; including surrebuttal witness, Joshua Wood, who testified “that K.U. tended to

19

blow things out of proportion and “victimize” herself, had difficulty taking responsibility

20

for her own actions, and tended to overdramatize things.” It cannot be said that the

21

unanticipated rape allegation rendered the trial fundamentally unfair when Gann was

22

afforded “a meaningful opportunity to present a complete defense” as guaranteed under the

23

Due Process Clause. In light of the record, the CCOA’s determination that the trial court

24

did not error by failing to strike K.U.’s testimony or declare a mistrial was neither contrary

25

to nor an unreasonable application of federal law. Petitioner’s objection is OVERRULED.

26
27

28
19
12cvl418 -JAH (BLM)

C ise 3:12-cv-01418-JAH-BLM

1

Document 58 Filed 09/14/18 PagelD.6654 Page 20 of 31

D. Re-Joinder of Gann and Hansen’s trials

2

Petitioner argues that the re-joinder of his trial with that of his co-defendant was

3

fundamentally unfair in violation of his due process rights. The magistrate judge discussed

4

exhaustion, but declined to address procedural defect before turning to the merits of

5

Petitioner’s claim. In Petitioner’s objection to the R&R, he argues that his defense of third

6

party culpability is irreconcilable with Hansen’s defense that she withdrew from the

7

conspiracy. Gann argues that Hansen’s counsel had to undermine Petitioner’s defense in

8

order to acquit Hansen - essentially requiring co-defendant’s counsel to act as a second

9

prosecutor, violating Gann’s right to a fair trial. Petitioner, however, does not address in

10
11

great detail the issues of exhaustion and procedural defect.
1. Exhaustion and Procedural Defect

12

Exhaustion and procedural defect are two separate legal theories that require a

13

habeas petitioner to submit his claims for relief to the highest state court before a federal

14

court will consider the claim. 28 U.S.C §2254; See O’Sullivan v. Boerckel, 526 U.S. 838

15

(1999) (section 2254 requires that state prisoners give state courts a fair opportunity to act

16

on their claims). Gann admittedly did not raise the issue of re-joinder on direct appeal

17

before the CCOA, but upon notice of the failure to exhaust his claim, he filed a petition for

18

writ of habeas corpus with the California Supreme Court. Doc. No. 18-78 at 1-9. In his

19

writ, he explains that despite his request, his appellate attorney “did not raise all issues,”

20

and “instead focused on only the strongest issues.” The California Supreme Court denied

21

the petition on two grounds: (1) for failure to “state fully and with particularity the facts on

22

which relief is sought” citing People v. Duvall, 9 Cal. 4th 464,474 (1995) and In re Swain,

23

34 Cal. 2d 300, 304 (1949); and (2) for failure to state special circumstances constituting

24

an excuse for not raising the claimed errors on timely appeal, citing In re Dixon, 41 Cal.

25

2d 756, 759-760 (1953) (“Petitioner has the burden in [a state habeas proceeding] of

26

alleging and proving all facts upon which he relies to overturn the judgment and of giving

27

a satisfactory reason for not resorting to his remedy of appeal.”). A review of the record

28

indicates no amended state habeas petition was filed.
20
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6655 Page 21 of 31

1

a. Exhaustion

2

Discussing the exhaustion doctrine, the United States Supreme Court concluded:

3

6

Because the exhaustion doctrine is designed to give the state courts a full and fair
opportunity to resolve federal constitutional claims before those claims are presented
to the federal courts.. .state prisoners must give the state courts one full opportunity
to resolve any constitutional issues by invoking one complete round of the State's
established appellate review process.

7

O’Sullivan, 526 U.S. 838, 845 (1999). In sum, the exhaustion doctrine is dependent upon

8

the procedural remedies available under state law. Loui v. Bronster, 246 F.3d 674 (9th Cir.

9

2000) (citing O’Sullivan, 526 U.S. at 847.). The Ninth Circuit has recognized that, “‘[i]n

10

California, a Swain/Duvall dismissal affords the petitioner the opportunity to refile an

11

amended pleading that “allege[s] with sufficient particularity the facts warranting habeas

12

relief.” [Petitioner's] failure to do this renders his claim unexhausted.

13

Walker, No. EDCV 08-1126-VBF(RC), 2009 WL 482344, at *3 (C.D. Cal. Feb. 24,2009);

14

(quoting Howard v. Campbell, 305 Fed. Appx. 442, 2008 WL 5424153, *2 (9th

15

Cir.(Cal.))).

4
5

16

?

5?

Douglas v. Fnu

b. Procedural Defect

17

In citing Lambrix v. Singletary, 520 U.S. 518, 525 (1997), the magistrate judge

18

choose to proceed to the merits of the habeas petition rather than consider procedural bar.

19

However, where issues of state law are straightforward and uncomplicated, Lambrix

20

suggests the procedural-bar issue be resolved first. Id. “A State’s procedural rules are of

21

vital importance to the orderly administration of its criminal courts; when a federal court

22

permits them to be readily evaded, it undermines the criminal justice system.” Johnson,

23

136 S. Ct. at 1807 (quoting Lambrix, 520 U.S. at 525). Accordingly, the Court reviews

24

California’s procedural rules.

25

California requires criminal defendants to raise available claims on direct appeal.

26

Johnson v. Lee, 136 S. Ct. 1802, 1804 (2016). In California, this rule is referred to as the

27

“Dixon-bar.” Id:, (citing Dixon, 41 Cal.2d at 759) (a defendant procedurally defaults a

28

claim raised for the first time on state collateral review if he could have raised it earlier on
21
12cvl418 -JAH (BLM)

C =tse 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6656 Page 22 of 31

1

direct appeal). This rule is commonly followed among federal habeas courts as well. See

2

Sanchez-Llamas v. Oregon, 548 U.S. 331, 350-351 (2006). Giving due regard to state

3

procedural rules that mirror those applied in federal courts, the Supreme Court in Johnson

4

reiterated that “‘[a] state procedural bar may count as an adequate and independent ground

5

for denying a federal habeas petition even if the state court had discretion to reach the

6

merits despite the default.’”136 S. Ct. at 1806 (quoting Walker v. Martin, 562 U.S. 307,

7

311 (2011)).

8
9
10
11

Absent showings of cause and prejudice, federal habeas relief will be unavailable
when (1) a state court [has] declined to address a prisoner’s federal claims because
the prisoner had failed to meet a state procedural requirement, and (2) the state
judgment rests on independent and adequate state procedural grounds. (Quotations
and citations omitted).

12

Martin, 562 U.S. at 308. If a petitioner raises a claim in a California state habeas petition

13

after substantial delay, the state court will still consider the petition on the merits if good

14

cause is demonstrated. In re Reno, 55 Cal. 4th 428, 460 (2012), as modified on denial of

15

reh ’g (Oct. 31,2012). Even if good cause is not presented, the state court will consider the

16

merits if the petition reflects an “error of constitutional magnitude led to a trial that was so

17

fundamentally unfair that absent the error no judge or jury would have convicted the

18

petitioner.”5 Id. If good cause for the delay is found, the petition is not deemed untimely,

19

and no procedural defect exists. However, even if the California Supreme Court found

20

Gann’s reasoning sufficient to support good cause, it was unable to reach the merits in light

21

of the petition’s deficiency. Gann’s failure to file an amended petition with sufficient

22

particularity to support relief, renders his claim unexhausted, even if not procedurally

23

defective. The state court was not granted a full opportunity to evaluate whether his claim

24

reflected an error of constitutional magnitude.

25
26
27

28

5 There are four recognized exceptions which prompt consideration of the petition on the merits. The
remaining three exceptions are inapplicable to the facts of this case.
22
12cvl418 -JAH (BLM)

C ase 3.12-CV-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6657 Page 23 of 31

1

Even assuming good cause was shown and an amended petition was filed detailing

2

specific facts in the record to support his claim, the Court Adopts the R&R’s determination

3

that petitioner’s re-joinder claim does not rise to the level of constitutional error in light of

4

the court’s use of separate juries. See Zafiro v. United States, 506 U.S. 534, 540, (1993)

* 5

(mutually antagonistic defenses are not prejudicial per se and therefore do not recjuire

6

severance); see also United States v. Lane, 474 U.S. 438,446 n. 8 (1986) (misjoinder rises

7

to the level of a due process violation only if it results in prejudice so great as to deny

8
UL

defendant his right to a fair trial.); United States v. Sidman, 470 F.2d 1158, 1167 (9th Cir.

9

1972)( two juries may be impanelled in a joint trial to obviate the difficulties presented by

10

the Bruton case without infringing upon constitutional guarantees). Petitioner’s objection

11

is OVERRULED.

12

E. Jury Instructions

13

Petitioner claims that the jury was improperly instructed. He challenges the state

14

court’s instruction on evidence of an uncharged conspiracy (CALCRIM No. 416) in

15

relation to the trial’s court’s ruling on the scope of the alleged conspiracy. He also argues

16

the jury should not have been instructed (under CALCRIM No. 418) that they could

17

consider Hansen’s statements for the truth, if they found the statements were made in

18

furtherance of a conspiracy because her statements were testimonial hearsay and the use of

19

Hansen’s statements violated Gann’s Sixth Amendment rights.

20

Gann’s CALCRIM 416 challenge is based on the trial court’s interpretation of the

21

California Evidence Code and California state law, neither of which are grounds for federal

22

habeas relief. See Estelle v. McGuire, 502 U.S. 62, 72 (1991) (“habeas powers unavailable

23

:o reverse a conviction based on a belief that the trial judge incorrectly interpreting

24

California law.)

25

Gann’s assertion of instructional error as it relates to CALCRIM No. 418 stems from

26

.he same issues presented in his claim for violation of his Sixth Amendment rights.

27

Pursuant to this Court’s determination that Hansen’s pre-arrest statements were testimonial

28
23
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6658 Page 24 of 31
•>

1

hearsay and therefore inadmissible under the Confrontation Clause, the Court

2

OVERRULES Petitioner’s objection as MOOT.

4

F. Cumulative Errors
The R&R limits Gann’s cumulative error argument to his claims involving Hansen’s

5

statements and K.U.’s testimony. Petitioner objects to this limitation and asserts that his

6

cumulative error argument applies to “the many evidentiary errors that occurred throughout

7

the course of the trial... in addition to the other six claims raised in this petition.” {Pet’r’s

8

Objs at 44.) The Court has conducted a complete review of the record and addressed each

9

of petitioner’s claims. While petitioner does present numerous alleged trial errors, the

10

Court recognizes two of constitutional dimension — namely admission of Hansen s pre­

11

arrest statements to law enforcement. However, the errors were not so numerous that the

12

combined effect would warrant habeas relief. The Court also notes the overall strength of

13

the prosecution’s case was considerably high. In light of the Court s finding of harmless

14

error, as discussed below, it cannot be said that violations of Gann’s Sixth Amendment

15

rights had a “substantial and injurious effect or influence” on the jury’s verdict. See Parle

16

v. Runnels, 505 F.3d 922, 928 (9th Cir. 2007) (quoting Strickland v. Washington, 466 U.S.

17

668, 696 (1984). Petitioner’s objection is OVERRULED.

3

18

G. Judicial Bias

19

Petitioner claims judicial bias infected his trial rendering it fundamentally unfair.

20

Gann argues that he was denied due process because the trial judge prejudged the case. His

21

claim is based on extrajudicial information received after trial that the trial judge attended

22

the arraignments of Gann and Hansen as a spectator and was overheard stating that

23

“MacNeil was a good man and he did not deserve what those punks did to him.”

24

moved for a new trial, attaching a declaration from the defense investigator who witnessed

25

the conversation between counsel and the attorney who allegedly overheard the statement.

26

The CCOA rejected the contention that Gann was denied due process. The CCOA

27

opinion concluded that the trial court did not error in denying Gann’s motion for a new

28

trial because: (1) the record did not affirmatively demonstrate by admissible evidence the

Gann

24
12cvl418 -JAH (BLM)

c

ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6659 Page 25 of 31

;

1

statement alleged was made by the trial judge; (2) defense counsel never expressed any

2

concern during trial, and (3) defense counsel failed to identify any specific comments or

3

rulings made that demonstrated bias against Gann. In his objection to the R&R, Gann

4

points to the trial court’s rulings and the multiple presumed trial errors laid out in his

5

petition as an indication of bias. The Court first notes that “judicial rulings alone almost

6

never constitute a valid basis for a bias or partiality motion.” Liteky v. United States, 510

7

U.S. 540, 555 (1994) (citing United States v. Grinnell Corp., 384 U.S. 563, 583 (1966).

8

Second, as discussed above, it cannot be said that petitioner’s trial was riddled with errors.

9

Third, the determination that petitioner’s Sixth Amendment rights were violated does not

10

demonstrate actual bias on the part of the trial judge. At most, it indicates an unreasonable

11

application of the law.

12

The reasoning, as explained in the R&R, holds true. The trial judge made statements

13

before trial regarding his professional interactions with the victim, both in and out of court.

14

Even if the trial judge formed an opinion of Gann’s guilt or innocence prior to being

15

assigned the case, his opinion would not constitute a basis for a constitutional error unless

16

it “display[s] a deep-seated favoritism or antagonism that would make fair judgment

17

impossible.” Id. at 555. Gann argues that the “overtly antagonistic comments are not part

18

of the record, but instead recorded as ‘discussion held off the record...

19

47. However, “judicial remarks during the course of a trial that are critical or disapproving

20

of, or even hostile to, counsel, the parties, or their cases, ordinarily do not support a bias or

21

partiality challenge. Liteky v. United States, 510 U.S. 540, 555 (1994). Whether the trial

22

judge formed an unfavorable predisposition or a preconceived notion prior to, during, or

23

outside of judicial proceedings, the bias must be so extreme as to display clear inability to

24

render fair judgment. Id. at 551.

Doc. No. 31 at

25

Petitioner’s claim that sufficient evidence exists in discussions off the record is

26

unpersuasive. Defense counsel made no mention of impartiality until after trial, despite

27

being made aware of the judge’s contact with the victim before trial. Adopting the R&R’s

28

reasoning, this Court finds that an evidentiary hearing is unwarranted and that the state
25
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6660 Page 26 of 31

1

court’s denial of a new trial was not contrary to federal law. Petitioner’s objection is

2

OVERRULED.

3

IL

4

Habeas relief is available when a state court’s decision is based on an unreasonable

5

determination of the facts in light of the evidence presented in the State court proceeding.

6

§2254. A “state court’s factual findings are entitled to a presumption of correctness that

7

can be overcome only by clear and convincing evidence”. 28 U.S.C. § 2254(e)(1);

8

Rodriguez v. McDonald, 872 F.3d 908, 918 (9th Cir. 2017) {citing Crittenden v. Chappell,

9

804 F.3d 998,1011 (9th Cir. 2015)). But this presumption does not apply to the state courts’

7 110

resolution of mixed questions of law and fact. Acosta-Huerta v. Estelle, 954 F.2d 581, 585

11

Unreasonable Factual Determinations

(9th Cir. 1992).

!■

12

The CCOA set forth facts within the factual background of the opinion. A large

13

majority of those facts within section one, entitled “Events leading up to the crime” and

14

two entitled “The murder of Timothy MacNeil” were taken from Hansen’s confession

15

and pre-arrest statements to law enforcement. See Doc. No. 18-71 at 49-55 (factual

16

background of the CCOA opinion); see also Doc. No. 18-10 at 46-97 (Det. Rivera interview

17

of Brea Hansen); Doc.No. 18-23 at 113-119 (testimony of officer Forsey re: Hansen’s

18

statements).

19

A. Facts Based on Inadmissible Evidence

20

First, Petitioner objects to the R&R’s reliance on particular statements in the factual

21

background on the basis that such statements were derived from evidence that was either

22

not admitted or improperly admitted into evidence at trial. On habeas review, “a federal

23

court is limited to deciding whether a conviction violated the Constitution, laws, or treaties

24

of the United States”. Estelle v. McGuire, 502 U.S. 62, 68 (1991). As discussed above,

25

under de novo review, the Court found it was constitutional error to admit Hansen’s pre­

26

arrest statements to Officer Forsey and Deterctive Rivera. However, the CCOA’s reference

27

to Hansen’s confession and pre-arrest statements to determine whether the trial court erred

28

in finding a conspiracy existed, and the scope of that conspiracy, did not constitute a
26
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6661 Page 27 of 31

1

violation of Gann’s due process rights. Further, as determined above, no constitutional

2

error arises from the admission of Hansen’s 911 call and Goodman’s testimony.

3

B. Historical Facts Reasonably Supported by the Evidence

4

Second, Petitioner challenges inferences drawn by the state court and particular

5

statements in the factual background on the basis that such findings of fact are not

6

reasonably supported by the evidence6. Gann objects to: (1) the “use of the inflammatory

7

word ‘hitman’ ”, (2) references to the purchase of “black” clothing by Gann, (3) statements

8

that the intruder was masked and dressed in black, (4) references to the get-a-way truck as

9

“Gann’s truck”, (5) references to Gann and Hansen “discussing] plans” to kill McNeil,

10

and (6) the statement that Hansen’s hands were bound with “one” zip-tie , as opposed to a

11

pair of zip-ties.

12

The reviewing Court must be “‘convinced that an appellate panel, applying the

13

normal standards of appellate review, could not reasonably conclude that the finding is

14

supported by the record’ before the state court”. Rodriguez, 872 F.3d at 919 (9th C-ir. 2017)

15

(quoting Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir. 2004). “A federal habeas corpus

16

court faced with a record of historical facts that supports conflicting inferences must

17

presume-even if it does not affirmatively appear in the record-that the trier of fact resolved

18

any such conflicts in favor of the prosecution, and must defer to that resolution.” Jackson

19

v. Virginia, 443 U.S. 307, 326 (1979); see also McDaniel v. Brown, 558 U.S. 120, (2010).

20

For a habeas writ to issue, the state court’s decision must be based on an unreasonable

21

determination of the facts - i.e. the factual finding must be determinative or material to the

22

state court’s decision. Therefore, the Court will address only those facts raised by Gann

23

that formed a basis for the CCOA’s determination that: (1) “[t]he evidence against Gann

24

was more than ample to convict of first degree murder”, and (2) “given all the evidence, it

25
26
27
28

6 Petitioner has not raised, either on direct appeal or on collateral attack, a Winship claim for violation of
his due process rights based on an insufficiency of the evidence, and the Court does not construe his
objections as such. 397 U.S. 358, 364, (1970).
27
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6662 Page 28 of 31

1

[was] not reasonably probable that the jury would have returned a different verdict,” had

2

no error occurred7. With these standards in mind, the Court turns to petitioner’s factual

3

challenges.

4

(1) The word “Hitman”: Goodman testified that: “[Gann] talked to a friend of his ... and
was gonna give him ...$2000, and he was going to ...[kill his stepfather] for him....”
Doc. No. 18-29 at 11, In 14-24. “[Gann] was gonna give the guy that was supposed to
come the $2000, and then I think the money that was in the safe, or the jewelry.” Id. at
24.

5
6
7
8
9
10
11
12
13

(2) Purchase of “black” clothing: Dolan Laveen testified that a credit card purchase was
made at the Sun City, Arizona Goodwill on July 18, 2007 at 9:06: 52 a.m. Doc. No. 1830, at 18-19,21. The signature of the purchaser, “looks like Nathan.” Id. at 21. “On this
particular transaction ...three men’s items [men’s shirts or pants] were purchased. Id.
at 19, 23. Goodman testified that “[Gann] went to a Goodwill and picked up a shirt,
gloves, I think pants and drove out to San Diego from Sun City...” Doc. No. 18-29 at
11. When asked if Gann described the clothes, Goodman answered “Black, Black
clothes.” Id. at 26. The last four digits of the visa credit card used to make the purchase
matched that of petitioner’s credit card account. Doc. No. 18-29 at 136.

14
15
16
17
18
19
20
21
22
23
24
25

(3) Masked intruder dressed in black: Hansen told the 911 operator that a man dressed in
dark clothing popped out downstairs and shot her dad after her dad refused to provide
the combination to the safe. Doc. No. 18-10 at 11-21. She stated that he was covered
“head to toe,” in black jeans, a long sleeve black shirt, a black ski mask, black shoes,
gloves and sunglasses. Id. at 12-13,18,20. Eyewitness Christopher Miles testified that,
“I saw him come out, jump down... .jumped off that retaining wall to the street....” Doc.
No. 18-24 at 13. When asked whether he could tell what the person was wearing, Miles
responded, “a velvet ...like sweater, and ....pair of black pants...like dickies. Pair of
black wrap-around sunglasses.” Id. at 14. A crime specialist with the San Diego police
department collected, a “dark blue knit ski mask, with eyes cut out” and “apparent brush
debris” and “one size, xl/xg black Stafford long-sleeved t-shirt” near the scene “from
the trees, bushes, North of the wooden San Diego and Electric pole, No. 178964.” Doc.
No. 18-25 at 114, 102. The DNA extract taken from the mask matched Gann with a
scientific certainty of 1 in 11 quintillion. Doc. No. 18-26 at 40. Later, a “pair of black
denim pants” were found inside-out. Id. at 108. Goodman testified, “[Gann] told me on
the way up the steps, he threw ...the gloves and the scrunchy that he was using as a
mask and it got caught in a tree, as he was running up the steps. But he just left it. [T]he

26
27
28

7 Whether Hansen was tied with one or two zip ties was immaterial to the state court’s determinations
and therefore not subject to review
28
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6663 Page 29 of 31

1
2
3
4

5
6

rest of the clothes that he had he threw off when he was driving back.” Doc. No. 18-29
at 14.
(4) Older Chevy Truck: Prosecution witness Devon Whitney was shown Exhibits 15 and
16 (pictures of Gann’s truck seized as evidence) and asked, “does that look like the
truck that you saw parked [at the top of the stairwell, next to the telephone pole] that
day?” He responded, “Yes, exactly.” Doc. No. 18-24 at 45-46. Goodman testified that
Gann drove “an older truck” and “parked at the top of a hill where there is a bunch of
steps.” Doc. No. 18-29 at 14.

7

10

(5) Discussions between Hansen and Gann: Goodman testified, “[Gann and his sister]
talked, I don’t know which had initiated it, but it was said that they were gonna take
care of [Mr. McNeil.]” Doc. No. 18-29 at 11. When Gann arrived at the McNeil house,
Hansen “kissed Gann and thanked him for coming.” Id. at 37.

11

Sufficient evidence appears in the record to support the factual findings which

12

formed the basis of the state court’s ultimate determination. Inferences properly drawn

13

from these facts, are entitled to statutory presumption of correctness. Parke v. Raley, 506

14

U.S. 20, 35-36 (1992). Petitioner has failed to meet his burden by clear and convincing

15

evidence and his objections to findings of fact and inferences drawn from those facts are
OVERRULED.

8
9

16
17

III.

18

A writ of habeas corpus shall issue only when constitutional error or an unreasonable

19

determination of the facts has a prejudicial effect on the outcome of the case. 28 U.S.C

20

2254(d); Brecht, 507 U.S. at 637 (1993) (“habeas petitioners may obtain plenary review of

21

their constitutional claims, but they are not entitled to habeas relief based on trial error

22

unless they can establish that it resulted in ‘actual prejudice.’ ”) Having determined that

23

(1) the admission of testimonial hearsay violated Gann’s Sixth Amendment right to

24

confront witnesses testifying against him and (2) reliance on such evidence to determine

25

Gann’s guilt constitutes trial error, the Court next determines whether the errors were

26

harmless.

27

28

Harmless Error Analysis

Even where constitutional error is found, in § 2254 proceedings a court must also
assess the prejudicial impact of constitutional error under the Brecht standard. Under
29
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6664 Page 30 of 31

I
1
2
3
4

that standard, habeas relief is warranted only if the error had a substantial and
injurious effect or influence in determining the jury's verdict. If a habeas court is left
with grave doubt about whether a constitutional error substantially influenced the
verdict, then the error was not harmless, (quotations and citations omitted).
Ortiz v. Yates, 704 F.3d 1026, 1038 (9th Cir. 2012).

5

Guided by the Supreme Court in Delaware v. Van Arsdall, the Court applies a five-

6

factor test to assess whether the errors resulted in a “substantial and injurious effect.” 475

7

U.S. 673, 684 (1986). The factors include: (1) the importance of the witness’ testimony in

8

the prosecution’s case; (2) whether the testimony was cumulative; (3) the presence or

9

absence of evidence corroborating or contradicting the witness’ testimony on material

10

points; (4) the extent of cross-examination otherwise permitted; and (5) the overall strength

11

of the prosecution’s case.

12

In light of the historical facts discussed in section 11(B) and having considered the

13

Van Arsdall factors, the Court deems it appropriate, to the extent the analysis is consistent

14

with this Court’s order, to ADOPT in part the R&R with regards to the harmless error

15

analysis set forth in sections IV(C)(2)(b) and (c)(iv) of the report. Finding that the errors

16

were harmless, the Court OVERRULES Petitioner’s objections to the R&R and finds, as

17

did the magistrate judge, that “there was ample evidence to support Gann’s murder

18

conviction outside of Hansen’s statements.” Gann has not shown that the admission of

19

testimonial hearsay evidence had a substantial injurious effect on the jury’s verdict.

20

Conclusion And Order

21

After having considered Petitioner’s objections on the merits, the CCOA opinion,

22

and the trial record, including sealed medical records, the Court finds that the R&R

23

provides a cogent analysis of the issues raised. The Court ADOPTS in part the R&R to

24

the extent it is consistent with this Court’s Order. Accordingly, IT IS HEREBY

25

ORDERED that:

26

1. The order denying Petitioner’s Rule 60(b) Motion [Doc. No. 45] is VACATED.

27

2. Petitioner’s renewed Motion For Reconsideration [Doc. No. 47] is GRANTED

28

3. Petitioner’s objections to the R&R are OVERRULED.
30
12cvl418 -JAH (BLM)

C ase 3:12-cv-01418-JAH-BLM Document 58 Filed 09/14/18 PagelD.6665 Page 31 of 31

i
l
2

4. The Court MODIFIES and ADOPTS in part the Report and Recommendations
[Doc. No. 28] of Magistrate Judge Barbara Lynn Major.

3

5. The petition for writ of habeas corpus [Doc. No. 1] is DENIED.

4

6. The Motion for Certificate of Appealability is DENIED as MOOT.

5
6

IT IS SO ORDERED.

7
8

Dated : September 14,2018

9
10

Hon. John a. Houston
UNITED STATES DISTRICT JUDGE

11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27

28
31
12cvl418 -JAH (BLM)

